              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Protective Force Response to a
Security Incident at Sandia National
Laboratory, California




DOE/IG-0658                            August 2004
   Sunday, February 8, 2004




The 1-ton truck that breached the
Sandia and Lawrence Livermore
National Laboratories’ security
perimeter.

SOURCE: SANDIA SECURITY OFFICE
       time of the incident, the barriers were not up, as called for in the procedures, and security
       personnel could not activate them; and

   •   Despite this incident, NNSA Federal and contractor security officials did not approve the
       use of the barrier activation procedures until May 2004, approximately 10 months after
       the installation of the barriers was completed. We could find no satisfactory explanation
       for the extended delay in implementing the totality of the $4.9 million in security
       upgrades at the site.

In addition, we found that applicable DOE/NNSA security procedures were not followed when
the suspect vehicle was stopped. Specifically:

   •   Sandia SPOs did not immediately arrest the suspect, waiting instead for local law
       enforcement officials to arrive on the scene to arrest and process the suspect. This
       occurred because Sandia placed its own restrictions on the implementation of the
       standard DOE arrest procedures; and

   •   Prior to the arrival of local law enforcement officials, Sandia SPOs failed to implement
       DOE procedures for “unknown risk” vehicle stops, which included restraining and
       searching the suspect and searching the suspect’s vehicle. We determined that Sandia’s
       local policies were in conflict with DOE’s standard “unknown risk” procedures. We
       were told that these local restrictions were intended to limit Sandia’s liability from legal
       challenges to the actions of the SPOs.

As noted in a recent Office of Inspector General report, entitled “The Department’s Basic
Protective Force Training Program” (DOE/IG-0641), local deviations from standard DOE
security procedures may interfere with the approved, overall strategy for protecting sensitive
departmental sites.

Sandia and LLNL represent two of the most critical national security components in the DOE
complex. Securing these sites has always been a stated Department priority. However, in the
post-September 11th environment, this effort has received even greater emphasis, as evidenced
by the costly security system upgrades described in this report. As a consequence, the protracted
delay in implementing the security upgrades and the restrictions imposed on standard
DOE/NNSA protective force procedures appeared inconsistent with the current security posture
of the Department.

The report includes recommendations to NNSA and the Department’s Office of Security and
Safety Performance Assurance (SSA) that are designed to enhance the Department’s safeguards
and security program.

MANAGEMENT REACTION

In responding to a draft of this report, NNSA did not specifically concur or nonconcur with our
findings and recommendations. NNSA stated that it recognizes the seriousness of the incident
that occurred and will identify lessons learned and ensure that appropriate follow-up actions are


                                                 1
implemented. However, other NNSA comments, as well as comments from the Sandia Site
Office that were attached to NNSA’s response, indicated disagreement with aspects of our
report. For example, while acknowledging that there was a delay in the implementation of the
pop-up barriers, NNSA stated that: “. . . the approval process for activation of the barrier was
executed in a manner that ensured the safest, most secure operating environment possible for
both members of the public and the responsible security protective force staff.” The Sandia Site
Office further stated that: “This process was complicated and took time to complete in that two
separate federal offices and two separate contractor organizations operating under separate and
distinct security and safety authorizations were involved.”


In light of current national security concerns, we believe that the delay in implementing barrier
activation was unacceptable. The site went through an assessment and planning process leading
to expenditure of about $4.9 million on critical security upgrades, including the barriers,
apparently without being certain under what conditions the barriers could be used. This was
followed by approximately 10 additional months to obtain approval for the use of the barriers,
several months of which were after the February 2004 incident. Further, the Site Office
explanation regarding the involvement of four separate entities was questionable given the fact
that all of the entities were under NNSA’s cognizance.


Finally, NNSA contended that the Sandia SPOs handled the situation within applicable
parameters. It was our conclusion that DOE’s policies and procedures required additional
actions on the part of the SPOs to ensure the safety and security of all personnel involved, as
well as the Department’s assets. SSA, in its response to the draft report, generally concurred
with the findings and recommendations and stated that: “. . . we agree that the responding
security police officers (SPOs) endangered themselves and the local law enforcement officers by
not immediately restraining and searching the subject . . . .”


Management’s comments are provided in their entirety in Appendix B of the report.


Attachment


cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Energy, Science and Environment
    Director, Office of Security and Safety Performance Assurance
    Director, Policy and Internal Controls Management
    Director, Office of Program Liaison and Financial Analysis




                                                2
PROTECTIVE FORCE RESPONSE TO A SECURITY INCIDENT
AT SANDIA NATIONAL LABORATORY, CALIFORNIA


TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective                  1

              Observations and Conclusions                2


              DETAILS OF FINDINGS

              Livermore Site Security Improvements        4

              Arrest of Suspect                           5

              Sandia California Vehicle Stop Procedures   6


              RECOMMENDATIONS                             8


              MANAGEMENT COMMENTS                         8


              INSPECTOR COMMENTS                          9


              APPENDICES

              A. Scope and Methodology                    10

              B. Management Comments                      11




                              1
Overview

INTRODUCTION    The Department of Energy (DOE) requires that safeguards and
AND OBJECTIVE   security interests be protected from hostile acts that may cause
                unacceptable adverse impacts to national security. DOE
                safeguards and security interests include the premises of National
                Nuclear Security Administration (NNSA) laboratories such as the
                Lawrence Livermore National Laboratory (LLNL) and Sandia
                National Laboratory, California (Sandia California), which are
                co-located in Livermore, California, and are hereafter jointly
                referred to as the Livermore site.

                DOE requires each site to determine the appropriate level of
                protection through an analysis of the risks facing the specific DOE
                safeguards and security interests, to include the nature of the threat,
                the vulnerability of the potential target, and the potential
                consequences of an adversarial act. A risk analysis at the
                Livermore site resulted in the closure of a public street, the
                construction of a truck inspection station, and the installation of
                guard kiosks and pop-up vehicle barriers on that street at a cost of
                approximately $4.9 million. This project was justified by
                emerging security threats and recent world events. The guard
                kiosks and pop-up barriers were completed by July 2003, and they
                control entry to a Federal Property Protection Area posted with
                signs prohibiting trespassing. A Federal Property Protection Area
                is an area established to protect Government-owned property
                against damage, destruction, or theft.

                In the early morning hours of Sunday, February 8, 2004, a 1-ton
                utility truck dragging a length of chain link fence and traveling at a
                high rate of speed was driven past one of the recently constructed
                security kiosks and into the Federal Property Protection Area. The
                kiosk was manned by Sandia California Security Police Officers
                (SPOs), with LLNL SPOs providing secondary support. The
                Sandia California SPO posted at the security kiosk immediately
                notified his superiors of the intrusion, and multiple SPOs rapidly
                responded to the scene, stopping the vehicle a considerable
                distance inside the Livermore site security perimeter. The suspect
                cooperated by stepping out of his vehicle and waited until local
                law enforcement officials arrived at the scene. Local law
                enforcement officials placed the suspect under arrest, searched the
                suspect, and ultimately transported the suspect to jail.

                As a result of concerns raised to the Office of Inspector General
                regarding how this incident was handled, we initiated a review of




Page 1                Inspection of Protective Force Response to a Security
                      Incident at Sandia National Laboratory, California
                   the matter. The objectives of this inspection were to determine if:
                   (1) the recently installed pop-up vehicle barriers were effectively
                   employed; and (2) applicable DOE/NNSA security procedures
                   were followed in response to the vehicle entering the Livermore
                   site without authorization.

OBSERVATIONS AND   We concluded that the pop-up vehicle barriers were not effectively
CONCLUSIONS        employed. Specifically, we found that:

                   • At the time of the incident, the barrier activation procedures had
                     not been approved by NNSA Federal and contractor security
                     officials, so the barriers had not been energized. Therefore, the
                     barriers were not up, as called for in the procedures, and
                     security personnel could not activate them.

                   • Despite this incident, NNSA Federal and contractor security
                     officials did not approve the use of the barrier activation
                     procedures until May 2004, approximately 10 months after the
                     installation of the barriers was completed.

                   In addition, we concluded that applicable DOE/NNSA security
                   procedures were not followed when the suspect vehicle was
                   stopped. Specifically, we found that:

                   • Sandia California SPOs did not arrest the suspect after he left
                     his vehicle and instead relied on local law enforcement officials
                     to arrest and process the suspect. This occurred because Sandia
                     California placed restrictions on the implementation of DOE
                     arrest procedures; and

                   • Prior to the arrival of local law enforcement officials, Sandia
                     California SPOs failed to implement DOE procedures for
                     “unknown risk” vehicle stops, which include restraining and
                     searching the suspect and searching the suspect’s vehicle. We
                     determined that Sandia California’s local policies contradicted
                     the DOE “unknown risk” procedures.

                   We believe that this incident demonstrates the need for NNSA and
                   its contractors to place greater emphasis on assuring that post-
                   September 11th security upgrades are effectively implemented in a
                   timely manner. We also believe that Sandia California’s ability to
                   effectively perform the SPO function has been hindered by local
                   restrictions on the implementation of DOE/NNSA protective force
                   requirements. These local restrictions, which we were told were
                   intended to limit Sandia California’s liability from legal challenges
                   to the actions of the SPOs, may prevent SPOs from reacting


Page 2                                               Observations and Conclusions
         effectively to potential threats. As noted in a recent Office of
         Inspector General report, entitled “The Department’s Basic
         Protective Force Training Program” (DOE/IG-0641), local
         deviations from standard DOE security procedures may interfere
         with the approved, overall strategy for protecting sensitive
         departmental sites.




Page 3                                    Observations and Conclusions
Details of Findings

LIVERMORE SITE        At the time of the incident, the barrier activation procedures had
SECURITY              not been approved by NNSA Federal and contractor security
IMPROVEMENTS          officials, so the barriers had not been energized. Therefore, the
                      barriers were not up, as called for in the procedures, and security
                      personnel could not activate them. Further, we noted that despite
                      this incident, NNSA Federal and contractor security officials did
                      not approve the use of the barrier activation procedures until
                      May 2004.




                                SOME OF THE NEWLY CONSTRUCTED SECURITY KIOSKS

                      According to an NNSA official, the construction work necessary to
                      make the barriers operational was completed in July 2003. Sandia
                      California also established “Special Order 2” in August 2003,
                      which prescribed general standards and rules for the deployment of
                      the pop-up barriers. However, the Special Order did not contain
                      specific criteria and procedures regarding barrier deployment or an
                      implementation date for barrier operation. In November 2003, and
                      again in January 2004, Sandia California officials provided draft
                      barrier implementation procedures to the NNSA Livermore and
                      Sandia Site Offices. We were told, however, that issues such as
                      the type of vehicle that would be stopped, considerations for
                      emergency vehicles leaving the site when the barriers were
                      activated, and the acceptable level of risk in operating the barriers
                      delayed approval of the draft procedures.

                      In the absence of procedures approved by NNSA Federal and
                      contractor security officials, the vehicle barriers were not used for
                      their intended purpose. Thus, on February 8, 2004, the barriers
                      were not available to the SPOs as an option for preventing
                      unauthorized access to the Livermore site. The approval from
                      NNSA Federal and contractor security officials to use the barriers
                      was not received until May 2004. In view of the justification for



Page 4                                                                Details of Findings
            the security upgrades, we believe this delay in approving barrier
            activation procedures is unacceptable.

ARREST OF   Sandia California SPOs did not arrest the suspect after he left his
SUSPECT     vehicle and instead relied on local law enforcement officials to
            arrest and process the suspect. This occurred because Sandia
            California placed restrictions on the implementation of the DOE
            arrest procedures. The local law enforcement officials arrested the
            suspect for three misdemeanor criminal violations.

            Under 10 Code of Federal Regulations (CFR) §1047.4, “Arrest
            Authority,” DOE and NNSA SPOs are extended Federal arrest
            authority in certain circumstances, including for listed
            misdemeanors committed in the presence of the SPO. Further,
            DOE Manual 473.2-2 “Protective Force Program Manual,” states
            under “Arrests” that:

                 When a suspected felon is apprehended (regardless of
                 whether on or off DOE property), or when a suspected
                 misdemeanant is apprehended on DOE property, the
                 [Protective Force] officer must immediately notify the
                 appropriate U.S. Attorney’s Office and escort the suspect to
                 the nearest U.S. District Court or U.S. Magistrate for
                 arraignment (unless otherwise directed by Federal law
                 enforcement authorities . . .). Under no circumstances must a
                 suspected felon be removed to another jurisdiction without
                 first being processed through the Federal criminal justice
                 system where the suspected felon was apprehended.

            An official with DOE’s Office of Security Policy Staff stated that
            the above procedures are describing SPO arrests.

            We determined that Sandia California prohibits its officers from
            implementing certain requirements of the “Protective Force
            Program Manual.” Specifically, Sandia California SPO policy and
            training materials state that:

                 . . . at this site we do not exercise our arrest authority
                 unless specifically directed by management. Instead,
                 we detain subjects until [L]ocal Law Enforcement
                 Agency (LLEA) personnel arrive. . . . DOE allows
                 individual sites to make this decision.




Page 5                                                       Details of Findings
                    The policy and training materials also state:

                         You’re probably wondering why we train you in arrest
                         authority when Pro Force arrests are not allowed at this
                         site.
                               * We must comply with DOE regulations
                               * There is always a possibility that you would
                                  have to arrest under special circumstances.

                    We were unable to find any directive or provision in DOE security
                    policies that allows individual sites to make the decision to not
                    exercise their arrest authority. We were told by an NNSA official
                    that restrictions at DOE and NNSA sites on the use of arrest
                    authority have evolved over the years due to concerns regarding
                    the liability that could result from legal challenges and that arrest
                    authority is generally restricted to the theft of nuclear material.
                    However, DOE policy does not make these distinctions. We
                    believe that restrictions on arrest authority imposed by Sandia
                    California may create confusion during an incident such as the one
                    that occurred on February 8, 2004, thereby preventing security
                    personnel from promptly addressing potential threats to the site.

SANDIA CALIFORNIA   Prior to the arrival of local law enforcement officials, Sandia
VEHICLE STOP        California SPOs failed to implement DOE procedures for
PROCEDURES          “unknown risk” vehicle stops, which include restraining and
                    searching the suspect and searching the suspect’s vehicle. We
                    determined that Sandia California’s local policies contradicted the
                    DOE “unknown risk” procedures.

                    Sandia California security officials provided us with a description
                    of the events of February 8, 2004. The officials said that when
                    trespassing onto the Livermore site, the suspect drove his vehicle
                    into a Federal Property Protection Area. Sandia California security
                    personnel in two vehicles approached the suspect’s vehicle
                    head-on with red lights illuminated, and the suspect halted. The
                    suspect exited his vehicle and assumed a prone position on the
                    ground without being directed to do so. Sandia California security
                    personnel directed the suspect to stand up so they could attempt to
                    determine by visual inspection if the suspect might have a weapon.
                    The security personnel then directed the suspect to move to a
                    nearby bench to wait for local law enforcement officers to arrive.
                    The suspect, though compliant with officers’ directions, exhibited
                    irrational behavior that included repeated screaming and fidgeting.
                    At the request of Sandia California security personnel, local law
                    enforcement officers took control of the incident upon their arrival
                    and processed the suspect and the incident scene.



Page 6                                                              Details of Findings
         The Department’s standardized SPO training course that
         implements Department security policies and procedures states that
         SPOs, when confronted with an “unknown-risk” vehicle stop, will
         order the suspect to remain on the ground in a prone position, then
         “speed-cuff” the suspect. The training also states that the suspect
         will be searched, followed by a search of the suspect’s vehicle for
         additional suspects. However, Sandia California SPO training
         policy contradicts this training. Specifically, Sandia California
         training policy states:

              Be very sure of justification and legality before
              conducting a search. We rarely encounter situations
              requiring us to search people, and we have mutual aid
              agreements with nearby agencies who are very
              experienced. Therefore, [Protective Force] personnel at
              Sandia/CA normally do not perform searches.

         Another Sandia California SPO training policy states that a search
         is appropriate while a suspect is detained if there is reasonable
         belief that it is necessary to protect the suspect or others. Sandia
         California officials said that, in their opinion, the suspect was
         compliant with the on-scene officers and represented a low risk to
         the officers since he was cooperative. The officials said that they
         believed a minimal use of force was appropriate given the
         circumstance of this incident.

         Local law enforcement officers who were knowledgeable of the
         incident events said that, in their opinion and pursuant to their
         department policy, the suspect represented a degree of risk that
         required that he be handcuffed and searched immediately after he
         was removed from his vehicle, not some 10 minutes later when
         they arrived at the scene. They said that since the suspect was
         wearing loose fitting clothing that could have concealed a weapon,
         a physical search was necessary to rule out that danger.




Page 7                                                  Details of Findings
RECOMMENDATIONS   We recommend that the Administrator, NNSA:

                  1. Review the circumstances that resulted in a delay in
                     implementation of the pop-up barriers, and ensure timely
                     implementation of security enhancements in the future.

                  2. Ensure DOE policies and procedures pertaining to arrests and
                     vehicle stops are implemented at the Livermore site, to include
                     SPOs being appropriately trained.

                  We recommend that the Director, Office of Security and Safety
                  Performance Assurance (SSA):

                  3. Evaluate the policies and procedures on arrest authority at
                     DOE’s sites, including NNSA’s, and develop additional
                     specific policies and procedures as necessary on the use of
                     arrest authority to ensure protective force personnel are able to
                     react effectively in assessing potential threats and arresting
                     suspects, particularly in a post-September 11th environment.

MANAGEMENT        In comments on our draft report, SSA generally concurred with our
COMMENTS          findings and recommendations.

                  NNSA did not specifically state whether management concurred
                  with the findings and recommendations in our draft report. NNSA
                  stated that NNSA and the Sandia Site Office recognize the
                  seriousness of the incident that occurred and will identify lessons
                  learned and ensure that appropriate follow-up actions are
                  implemented. However, other NNSA statements, as well as
                  comments from the Sandia Site Office that were attached to
                  NNSA’s response, indicated disagreement with aspects of our
                  report. For example, while acknowledging that there was a delay
                  in the implementation of the pop-up barriers, NNSA stated that:
                  “. . . the approval process for activation of the barrier was executed
                  in a manner that ensured the safest, most secure operating
                  environment possible for both members of the public and the
                  responsible security protective force staff.” The Sandia Site Office
                  further stated that: “This process was complicated and took time
                  to complete in that two separate federal offices and two separate
                  contractor organizations operating under separate and distinct
                  security and safety authorizations were involved.”

                  As another example, NNSA’s response stated that the Sandia Site
                  Office’s “comments provide information that causes the on-site
                  General Counsel to believe that the Sandia-Livermore Protective



Page 8                                                    Recommendations
                                                          Management Comments
            Force personnel handled the situation within the parameters of
            Federal law and the Use of Force continuum.”

            Management’s comments are provided in their entirety in
            Appendix B of the report.

INSPECTOR   We found SSA’s comments to be responsive to our report.
COMMENTS    Regarding NNSA’s comments, we believe that the extended delay
            in implementing barrier activation was unacceptable. The site
            went through an assessment and planning process and
            subsequently spent about $4.9 million on critical security upgrades
            that included the barriers, without being certain whether and under
            what conditions it would actually use the barriers. This was
            followed by approximately 10 additional months to obtain
            approval for the use of the barriers, several months of which were
            after the February 2004 incident. The Sandia Site Office’s
            explanation that the approval involved four separate entities
            operating under separate and distinct security and safety
            authorizations is troubling in that each of the entities was under
            NNSA’s cognizance. In today’s environment, all Departmental
            elements must act in a cohesive manner to quickly identify and
            address security issues.

            Regarding NNSA’s statement that the Sandia-Livermore Protective
            Force personnel handled the situation within the parameters of
            Federal law and the Use of Force continuum, we believe that
            DOE’s policies and procedures required additional actions on the
            part of the SPOs to ensure the safety and security of all personnel
            involved, as well as the Department’s assets. Further, we note that
            SSA stated in its comments that: “. . . we agree that the responding
            security police officers (SPOs) endangered themselves and the
            local law enforcement officers by not immediately restraining and
            searching the subject . . . . Also, the SPOs should have conducted
            at least a cursory inspection of the vehicle to ensure that it
            contained no other persons who could have presented a threat.”




Page 9                                            Inspector Comments
Appendix A

SCOPE AND     The fieldwork for this inspection was conducted between February
METHODOLOGY   and April 2004. As part of this inspection, we interviewed
              officials from the NNSA Service Center and the Livermore and
              Sandia Site Offices, as well as security officials from Sandia
              California. We also interviewed local law enforcement officials.
              We conducted a document review and analysis that included:

              •   10 CFR §1047 “Limited Arrest Authority and Use of Force by
                  Protective Force Officers”;

              •   DOE Order 473.2 “Protective Force Program”;

              •   DOE Manual 473.2-2 “Protective Force Program Manual”;

              •   DOE Manual 473.1-1 “Physical Protection Program Manual”;

              •   East Avenue security upgrade construction planning
                  documentation;

              •   Security Implementation Plan for Access Control to East
                  Avenue, dated October 2002;

              •   DOE Central Training Academy “Vehicle Stops” course
                  syllabus; and

              •   Sandia California SPO lesson plans that included “Search and
                  Seizure,” “Limited Arrest Authority,” and “Use of Force.”

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                            Scope and Methodology
Appendix B




Page 11      Management Comments
Page 12   Management Comments
Page 13   Management Comments
Page 14   Management Comments
Page 15   Management Comments
Page 16   Management Comments
                                                                    IG Report No. DOE/IG-0658

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
